-Al-

APPENDIX A
Case # 19-20465
UNITED STATES COURTS OF APPEALS FOR THE FIFTH
CIRCUIT
EBONI NICOLE BALDWIN,
Plaintiff-Appellee, v.
LATOISHA DORSEY Defendants-Appellant.

On Appeal from the United States District Court
for the Southern District of Texas
Before KING, JONES, and COSTA, Circuit Judges.
EDITH H. JONES, Circuit Judge:
Harris County sheriffs deputy Latoisha Dorsey appeals a denial of summary
judgment, contending that qualified immunity shields her from liability, based on
Eboni Baldwin’s claim under 42 U.S.C. § 1983. Baldwin maintains that Dorsey was
deliberately indifferent to her serious medical needs resulting from an alleged
psychological crisis. Yet Baldwin has failed to show either that Dorsey’s actions,
which led to a three-hour delay in medical treatment, manifested deliberate
indifference or that Dorsey’s conduct was objectively unreasonable under clearly
established law. It follows that Dorsey is entitled to qualified immunity. We
REVERSE and REMAND for entry of an order of dismissal.

BACKGROUND
Around midnight on September 27, 2014, a concerned citizen approached a car
stopped at a traffic light in Houston. Finding Baldwin, the driver, awake but incoherent,
he called an ambulance. When emergency personnel arrived, Baldwin told an emergency
medical technician (“EMT”) that she had posttraumatic stress disorder (“PTSD”) and
that she had taken four sleeping pills. The EMT noticed two pills in Baldwin’s hand and
an open water bottle in her lap. Soon afterwards, Deputy Dorsey and other deputies
arrived on scene. Dorsey observed that Baldwin was intermittently unconscious and
learned from the EMT that she had been holding the sleeping pills and an open water

-A2bottle. Although an EMT told Baldwin he would like to take her to the hospital in an
ambulance, she refused that request. Dorsey and other deputies removed Baldwin from
her car and placed her, handcuffed, in the back of a patrol car. The deputies searched
Dorsey’s car, which clearly displayed a disability placard in the front window. During
this time, Baldwin told someone with a male voice that she had PTSD. After the search,
Dorsey drove Baldwin to Houston Police Central Intox, where law enforcement
administer intoxication tests. En route, Baldwin, who was now plainly likely to face
charges, told Dorsey that she felt suicidal and asked to be taken to the hospital.3Dorsey
refused and proceeded to the testing facility. On arrival, Dorsey handcuffed Baldwin to a
bench in a cell, where Baldwin stayed for two hours while she waited for a blood draw.
After the blood draw, Dorsey took Baldwin to Harris County Jail. At booking, Baldwin
repeated her request to go to the hospital because she felt suicidal, and a jail nurse was
called over. The nurse called in a doctor, who determined that the jail would not accept
Baldwin until she had been cleared by a hospital. Dorsey then took Baldwin to the
hospital, where Baldwin’s screening and treatment lasted less than an hour. Medical
records from the visit include a struck-through notation that Baldwin was having
suicidal thoughts. Those records also note that Baldwin “appear[ed] in no acute distress”
and was “alert,” “pleasant,” “cooperative,” and “calm.” After the hospital visit, Dorsey
returned Baldwin to jail. Sometime later, Baldwin was released, her criminal charges
were dropped, and her arrest records were expunged. In response to this incident,
Baldwin filed a pro se lawsuit against Dorsey and others under 42 U.S.C. § 1983,
asserting that their actions violated the Fourth and Fourteenth Amendments. Baldwin
alleged that her psychiatric condition had deteriorated since the incident and she
required hospitalization to treat her exacerbated PTSD symptoms. She also alleged that
she “reexperiencfedj” the trauma of the incident and, as a result, now feared police,
traveling, and taking prescription medication. The defendants moved to dismiss for
failure to state a claim. The district court dismissed all claims except Baldwin’s
deliberate-indifference claim against Dorsey and granted Baldwin’s motion for appointed
counsel. Dorsey then asserted qualified immunity and moved for summary judgment on
Baldwin’s remaining claim. The court heard argument, denied the motion from the
bench, and issued a written opinion stating that fact issues remained as to whether a
constitutional violation occurred and whether Dorsey was entitled to qualified immunity.
Dorsey timely appealed.

STANDARD OF REVIEW
To start, we must address a jurisdictional challenge. Baldwin maintains that “Dorsey’s
arguments on appeal challenge only the district court’s determination that there remain
genuine disputed facts.” While the denial of a summary judgment motion based on
3 Dorsey denies this allegation, but on review of denial of summary judgment, we take the non-movant’s
allegations to be true.

-Asqualified immunity is immediately appealable, this court’s jurisdiction extends only to “the
district court’s legal analysis of qualified immunity,” Jason v. Tanner, 938 F.3d 191, 194
(5th Cir. 2019), not to the sufficiency of the evidence. Plainly, Dorsey has asserted
qualified immunity as a matter of law. A large portion of her brief is dedicated to
discussing cases suggesting that her response to Baldwin did not amount to objectively
unreasonable behavior in light of clearly established law. Dorsey alludes to fact issues, but
the introduction to her brief states that “[w]hen considering a qualified immunity defense,
the Court must decide . . . whether facts alleged, taken in the light most favorable to the
plaintiff’ violated a constitutional right. We have jurisdiction over the issues raised.4
Turning to the merits, “[o]nce a government official asserts [qualified immunity], the
burden shifts to the plaintiff to ‘rebut the defense by establishing that the official’s
allegedly wrongful conduct violated clearly established law and that genuine issues of
material fact exist regarding the reasonableness of the official’s conduct.’” Bourne v.
Gunnels, 921 F.3d 484, 490 (5th Cir. 2019) (quoting Gates v. Tex. Dep’t of Prot’ve & Reg’y
Servs., 537 F.3d 404, 419 (5th Cir. 2008)). “Where, as here, the district court finds that
genuinely disputed, material fact issues preclude a qualified immunity determination, this
court can review only their materiality, not their genuineness.” Manis v. Lawson, 585 F.3d
839, 842 (5th Cir. 2009). Yet, “[w]hether there are material issues of fact is reviewed de
novo.” Id. at 843 (citing Ontiveros v. City of Rosenberg, 564 F.3d 379, 382 (5th Cir. 2009)).
Further, “ [t]he plaintiffs factual assertions are taken as true to determine whether
they are legally sufficient to defeat the defendant’s motion for summary judgment.” Id.
(citing Freeman v. Gore, 483 F.3d 404, 410 (5th Cir. 2007)).

DISCUSSION
Baldwin must establish material fact issues on two points to survive summary
judgment based on qualified immunity. Cleveland v. Bell, 938 F.3d 672, 675-76 (5th Cir.
2019). She must adduce facts to show that Dorsey violated her constitutional rights, and
she must show that “the asserted right was clearly established at the time of the alleged
misconduct.” Id. A court may consider either condition first, and if either condition does
not obtain, then Dorsey is immune. Morgan v. Swanson, 659 F.3d 359, 385 (5th Cir. 2011)
(en banc). To be more precise, the Fourteenth Amendment protects pretrial detainees’
right to medical care and to “protection from known suicidal tendencies.” Garza v. City of
Donna, 922 F.3d 626, 632 (5th Cir. 2019); Hare v. City of Corinth, 74 F.3d 633, 639 (5th
Cir. 1996) (en banc). A government official violates a Fourteenth Amendment right when
the official acts with deliberate indifference to a detainee’s serious medical needs. To prove
deliberate indifference, Baldwin must show that Dorsey was “aware of facts from which
4 Although Dorsey disputes the timing of Baldwin's "outcry" to her for hospital treatment, she concedes, as she must,
Baldwin’s assertion of timing for purposes of qualified immunity. Dorsey also concedes that Baldwin received no
suicide evaluation for several hours after her arrest, but she does not and need not concede that she consequently "did
nothing" to prevent Baldwin from killing herself.

-A4the inference could be drawn that a substantial risk of serious harm exists,” that Dorsey
actually “dr[e]w the inference,” and that Dorsey “disregarded] that risk by failing to take
reasonable measures to abate it.” Hyatt v. Thomas, 843 F.3d 172, 177 (5th Cir. 2016)
(quoting Farmer v. Brennan, 511 U.S. 825, 837, 114 S. Ct. 1970, 1979 (1994)); Arenas v.
Calhoun, 922 F.3d 616, 620 (5th Cir. 2019) (quoting Gobert v. Caldwell, 463 F.3d 339, 346
(5th Cir. 2006)). Finally, Baldwin must show that “substantial harm” resulted from
Dorsey’s alleged deliberately indifferent conduct. Mendoza v. Lynaugh, 989 F.2d 191, 193
(5th Cir. 1993). The second prong of the qualified immunity analysis asks whether the
detainee’s right to treatment for serious medical needs was “clearly established” such that
every “reasonable official would understand that what [she] is doing violates that right.”
Anderson v. Creighton, 483 U.S. 635, 640, 107 S. Ct. 3034, 3039 (1987). This inquiry “must
be undertaken in light of the specific context of the [particular] case, not as a broad
general proposition . . . .” Saucier v. Katz, 533 U.S. 194, 201, 121 S. Ct. 2151, 2156 (2001).
Although qualified immunity does not require a case in point, “existing precedent must
have placed the statutory or constitutional question beyond debate.” Kisela v. Hughes, 138
S. Ct. 1148, 1152 (2018) (quoting White v. Pauly, 137 S. Ct. 548, 551 (2017)).
In this case, the district court purported to find “a substantial risk of serious harm”—
namely, “a significant risk of suicide”—in the fact that Baldwin “was either on the brink of
a suicide attempt via prescription overdose or had already overdosed on sleeping pills.”
The court found genuine disputes as to whether the significant risk existed and whether
Dorsey actually inferred a substantial risk of suicide. Further, the court found it
“unreasonable” that the “Defendant [took] no action for almost three hours after learning
of Plaintiffs suicidal ideations and possible overdose just hours earlier,” “refusing] to
treat [Plaintiff], and ignoring] [her] complaints” (internal citations omitted). Finally, the
court accepted as “substantial” Baldwin’s allegations of psychological and other harm
resulting from Dorsey’s alleged conduct. Based on these alleged facts, and the court’s view
that “Defendant’s total failure for three hours to take any measures to address Plaintiffs
risk of suicide is a violation of clearly established law,” the court denied Dorsey’s motion
for summary judgment.
We are constrained to disagree with the court’s conclusions on both the constitutional
violation and the question of clearly established law. First, as a matter of law, the record
does not support an inference that while in Dorsey’s custody Baldwin faced a substantial
risk of suicide. Second, as a matter of law, Dorsey’s conduct did not amount to “inaction” in
response to Baldwin’s outcry for psychological assistance. We assume that when she was
found, Baldwin “was either on the brink of a suicide attempt via prescription overdose or
had already overdosed on sleeping pills,” but that fact is not germane to the risk that, once
in Dorsey’s custody, she would commit suicide by overdose.5 It is undisputed that Baldwin
5 Baldwin does not argue that her alleged overdose itself endangered her physical health. Indeed, at oral argument,
Baldwin's counsel explicitly stated that it has "not been our position" that Baldwin "was in imminent danger of death
by overdose." In any event, the risk of serious harm resulting from past action in this case is nothing like the risk in
Dyer v. Houston, for example. In that case, this court affirmed that a jury could plausibly infer a substantial risk that

-A5was monitored from the moment she was found at the intersection until she was
handcuffed, and she was handcuffed until she went to the hospital. Because of this, a
reasonable jury could infer that Baldwin would have liked to have taken more sleeping
pills, but no factfinder could reasonably infer a substantial risk that Baldwin actually
could take more pills.
Accordingly, Baldwin did not face a substantial risk of suicide by overdose while in
Dorsey’s custody. Baldwin suggests that there was a substantial risk that she would
commit suicide by other means. But even if Dorsey inferred a substantial risk that
Baldwin would commit suicide by means other than overdose, still, Dorsey’s conduct—e.g.,
handcuffing Baldwin in the patrol car and handcuffing her to a bench by one hand at the
Intox facility—were reasonable measures to (and did in fact) abate that risk. On this
record, no reasonable jury could determine that Dorsey was deliberately indifferent to
protecting Baldwin against self-harm or suicide. As still another alternative, Baldwin
suggests that Dorsey was deliberately indifferent to her serious medical need for
treatment of a psychological crisis.
For Baldwin to have a claim on this ground, the record would have to support that
Baldwin faced a substantial risk of serious psychological harm, that Dorsey inferred or
knew as much,6 that Dorsey failed to take reasonable measures to abate the risk, and that
substantial harm resulted from that failure. Assuming the first two elements are
debatable, we will consider whether Dorsey took reasonable measures to abate a
substantial risk of serious psychological harm. The central fact relied on by the district
court is that Dorsey “t[ook] no action for almost three hours after learning of Plaintiffs
suicidal ideations and possible overdose just hours earlier.” Yet it is undisputed that
Dorsey took Baldwin to a nurse within three hours and to the hospital for suicide
evaluation within four hours.
Three hours’ delay in directly responding to a medical need, at least on the facts alleged
here, is not the same as never taking responsive action at all. Moreover, the reason for
delay in this case—to gather information about Baldwin’s level of intoxication—is a
legitimate governmental objective. Cf. Rhyne v. Henderson County, 973 F.2d 386, 391 (5th
Cir. 1992) (Pre-trial detainees “must be provided with ‘reasonable medical care, unless the
failure to supply it is reasonably related to a legitimate government objective.’” (quoting
Cupit v. Jones, 835 F.2d 82, 85 (5th Cir. 1987))); Grayson v. Peel, 195 F.3d 692, 696 (4th
Cir. 1999) (recognizing that allowing a constitutional claim in this area for police conduct
that does not rise to the level of d indifference would result in the “startling” requirement
that “officers take all criminal suspects under the influence of drugs or alcohol to hospital
emergency rooms rather than detention centers”). Consequently, this theory of liability
also fails because the undisputed facts do not amount to a violation of constitutional
serious harm would result from an 18-year-old, "in the grip of a drug induced psychosis, striking] his head violently
against the interior of [a] patrol car over 40 times en route to the jail." 955 F.3d 501, 508 (5th Cir. 2020).
6 The district court points out that Dorsey had "taken classes in Suicide Prevention, Inmates with Mental Illness, and
Crisis Intervention Training."

-A6rights.
In addition to the failure of her constitutional-violation theories, Baldwin has not
shown that “the asserted right was clearly established at the time of the alleged
misconduct,” Bell, 938 F.3d at 676. As the district court stated, “the question is whether,
assuming that Defendant learned of Plaintiffs suicidal ideations around 1:35 AM,
Defendant had fair notice that she was required to take measures to address Plaintiffs
expressed suicidal thoughts sometime sooner than three hours later.” In particular,
because Dorsey clearly kept Baldwin safe from self-harm, the question is whether Dorsey
had fair notice that she was required to provide professional medical care within three
hours. We hold that no such fair notice was available.
The district court held to the contrary but identified no case that clearly answers its
question. Instead, it cited, first, Brown v. Strain, in which the defendant waived the issue
whether his conduct was objectively unreasonable in light of clearly established law, 663
F.3d 245, 249-51 (5th Cir. 2011). The court cited two cases where, we held, there was no
deliberate indifference and one case in which this court, under the pre-Twombly standard,
reversed a Rule 12(b)(6) dismissal of a possible deliberate-indifference claim. See Domino
v. Tex. Dep’t of Criminal Justice, 239 F.3d 752, 755—56 (5th Cir. 2001); Rhyne, 973 F.2d at
392-94 (5th Cir. 1992); Partridge v. Two Unknown Police Officers, 791 F.2d 1182, 1189
(5th Cir. 1986). None of these cases is apposite.
The district court acknowledged that in Hare v. City of Corinth this court stated, “[W]e
cannot say that the law is clearly established with any clarity as to what. . . measures
[jailers must take to prevent inmate suicides once they know of the suicide risk].” 135 F.3d
320, 329 (5th Cir. 1998) (emphasis added) (quoting Rellergert v. Cape Girardeau County,
924 F.2d 794, 797 (8th Cir. 1991)). Hare thus fails to clearly establish the objective
unreasonableness of Dorsey’s conduct. Certainly, nothing in Hare clearly establishes that
to inform a nurse of a detainee’s suicidal ideations after three hours’ delay (during which
time the detainee was tested for intoxication, remained handcuffed, and was deprived of
the only means of suicide to which she had, apparently, resorted) is objectively
unreasonable. See id.
Baldwin takes one more shot at showing that clearly established law gave notice to
officers that failing to take her to the hospital within three hours of a report of suicidal
ideations would constitute deliberate indifference. She points to Easter v. Powell, in which
a nurse “offered no treatment options”— ever—to a prisoner who had suffered severe chest
pain for twenty minutes and “ha[d] a history of serious heart problems,” including chest
pain and vomiting two days earlier. 467 F.3d 459, 465, 461 (5th Cir. 2006) (emphasis
added).^Because Baldwin fails to establish a triable material issue concerning a violation
7 Easter might clearly establish the unreasonableness of the conduct toward the drug tripping, self-harming
arrestee in Dyer, where officers never sought medical attention, 955 F.3d at 508, but it is inapposite to a

-A7of a constitutional right or law clearly establishing that Dorsey’s alleged conduct was
objectively unreasonable, we conclude that Dorsey is entitled to qualified immunity.

CONCLUSION
The judgment of the district court is REVERSED, the case REMANDED for entry of
DISMISSAL.

three-hour delay during which the prisoner was prevented from self-harm.

